EPA Had Not Effectively Implemented Its
Superfund Quality Assurance Program
                                                              Office of Inspector General
                                                              Audit Report




                                                            SUPERFUND

                       EPA Had Not Effectively Implemented Its Superfund Quality Assurance Program
                                                 E1SKF7-08-0011-8100240
                                                    September 30, 1998


                                                     EXECUTIVE SUMMARY

INTRODUCTION

U. S. Environmental Protection Agency (EPA) managers are required to make important decisions on complex issues that have
significant environmental, social, health, and economic impacts and consequences. To support these decisions, EPA must collect data
to gain a better scientific understanding of the environmental issues being addressed. Although the collection of the data is necessary
and in many cases required by law, it is expensive. Each year EPA and the regulated community spend about 5 billion dollars
collecting environmental data. The EPA quality assurance program was intended to help EPA organizations conduct their data
collection operations more efficiently and cost effectively by incorporating scientific and systematic planning into the process.

To date, Superfund is the only EPA program for which we have completed quality assurance audits. Because our audit work showed
that Superfund weaknesses resulted from how the EPA quality assurance program was implemented in the regions, we anticipate that
similar weaknesses in other EPA program offices may exist. Accordingly, we expanded our work to review implementation of some
comprehensive aspects of the Agencywide quality assurance program in order to make recommendations to improve potential data
weaknesses in other programs.

OBJECTIVES

Our overall purpose was to determine if EPA had developed and implemented a quality assurance program to ensure that
environmental data used to support decision making in the Superfund program was of sufficient quality to satisfy the intended
purpose. Our specific objectives were:

    •    Has EPA effectively developed and implemented its mandatory Agencywide quality assurance program to obtain quality data
         from Superfund field sampling?
    •    Is EPA appropriately implementing its policy to develop data quality objectives to support Superfund decision making?
    •    Is EPA’s oversight of Superfund field sampling adequate to ensure data of known and adequate quality?
    •    Has EPA developed an effective quality assurance training program?

RESULTS IN BRIEF

EPA’s Quality Assurance Division and the Superfund program had developed many critical elements necessary for a strong and
effective quality assurance program. However, EPA managers had not demonstrated their commitment to a cohesive, centrally-
managed, mandatory Agencywide program by fully developing and effectively implementing the program to obtain Superfund and
other data of known and adequate quality. Because EPA needs scientifically sound environmental data to achieve its overall mission
and effectively implement its strategic plan, EPA required a consistent and effective quality assurance program for all programs,
including Superfund. However, the program was not as successful as it could have been because senior EPA managers in the Offices
of Research and Development and Solid Waste and Emergency Response and in the regions had not always fully supported the
Agencywide program by establishing and implementing minimum project planning, oversight, and training requirements; providing
necessary tools and resources; and asserting their authority to fully implement the program. Without an effective Agencywide
program, EPA could not fulfill its mission which includes ensuring environmental data of known and adequate quality.

RECOMMENDATIONS

We recommend the Acting Assistant Administrator for Research and Development design a strategy to institutionalize the quality
assurance program; place EPA’s top quality assurance manager at an organizational level where that individual can be an effective and
independent advocate; improve oversight, including improved management assessments, to ensure the program is effectively
implemented; develop minimum quality assurance requirements; and report annually on Agencywide program effectiveness.

We recommend the Acting Assistant Administrator for Solid Waste and Emergency Response require Office of Emergency and
Remedial Response quality assurance staff to continue performing regional management and technical assessments to ensure that the
data quality objectives policy is being adequately implemented in the Superfund program to improve project planning, provide
Superfund staff with sufficient tools to implement EPA’s data quality objectives policy, place the Superfund quality assurance
manager at an organizational level where that individual can be an effective and independent advocate, and implement EPA guidance
on quality assurance training.

AGENCY COMMENTS AND OIG EVALUATION

With a few exceptions, EPA generally agreed with our findings and recommendations. EPA offered comments to clarify some issues
and recommendations, and we have modified our report as appropriate. We summarize EPA comments at the end of each chapter
highlighting those significant issues on which we and EPA disagreed. We also include the full text of the comments as Appendices I
and II.
